HHS/OIG-Audit--"Review of Medicare Providers and Electronic Claims Processing, (A-05-94-00039)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Providers and Electronic Claims Processing,"
(A-05-94-00039)
May 31, 1996
Complete Text of Report is available in PDF format
(2.34 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that excellent progress is being made at the provider
level in converting Medicare claims processing to a total electronic environment.
As in all new systems, however, there are growing pains. Additional provider
guidance would be beneficial for defining needed internal controls and the responsibilities
of each provider in the claims process. Those still submitting hard copy claims
need further encouragement to convert to a electric media claims (EMC) processing
environment. We recommended that the Health Care Financing Administration (HCFA)
consider (1) developing additional guidance and instruction on internal controls,
(2) providing free training and cost-benefit information on EMC to providers
still submitting hard copy claims, and (3) phasing in requirements that Medicare
providers with significant paper claims volume convert to EMC. The HCFA concurred
with our recommendations and noted several steps already taken to implement
them.